U.S. Department of                       The Inspector General   Office of Inspector General
Transportation                                                   Washington, DC 20590
Office of the Secretary
of Transportation

March 19, 2010

The Honorable Patty Murray                 The Honorable John W. Olver
United States Senate                       United States House of Representatives
Chairman                                   Chairman
Subcommittee on Transportation,            Subcommittee on Transportation,
Housing and Urban Development, and         Housing and Urban Development, and
Related Agencies                           Related Agencies
Committee on Appropriations                Committee on Appropriations
Washington, DC 20510                       Washington, DC 20515

The Honorable Christopher Bond             The Honorable Tom Latham
United States Senate                       United States House of Representatives
Ranking Member                             Ranking Member
Subcommittee on Transportation,            Subcommittee on Transportation,
Housing and Urban Development, and         Housing and Urban Development, and
Related Agencies                           Related Agencies
Committee on Appropriations                Committee on Appropriations
Washington, DC 20510                       Washington, DC 20515

 Dear Chairmen Murray and Olver and Ranking Members Bond and Latham:

 This report is in response to the Joint Explanatory Statement (JES) accompanying the
 fiscal year 2009 Omnibus Appropriations Act. 1 This JES directs the Office of
 Inspector General to evaluate the Federal Aviation Administration’s (FAA) process
 for collecting, analyzing, and using field inspection data collected through its Air
 Transportation Oversight System (ATOS).

 FAA introduced ATOS in 1998 as its new tool for conducting air carrier safety
 inspections. ATOS was a major shift in FAA’s oversight system as it moved beyond
 the traditional inspection method of simply checking an air carrier’s compliance with
 regulations to identifying and assessing safety risks to preclude accidents. FAA
 initially implemented ATOS at 10 of the Nation’s largest passenger air carriers.


 1
     Pub. L. No. 111-8 (2009).


 CC-2009-070
                                                                                                                   2


Today, all Part 121 2 passenger air carriers in the United States are being inspected
using ATOS.

Over the past 7 years, we have reported on a number of weaknesses within ATOS. In
2002, we recommended that FAA establish strong national oversight and
accountability to ensure consistent ATOS field implementation. 3 In 2005, we again
recommended that FAA strengthen its national oversight of field offices by
establishing policies and procedures to ensure air carrier inspections are conducted in
a timely and consistent manner. 4 More recently, in 2008, we recommended that FAA
implement a process to track field office inspections and alert the local, regional, and
Headquarters offices to overdue inspections. 5

To conduct this review, we obtained and analyzed ATOS inspection data and
interviewed FAA Flight Standards Division (Headquarters) and regional managers to
evaluate their role and effectiveness in analyzing data and ensuring timely completion
of inspections.

Summary
FAA’s oversight of ATOS inspections continues to be ineffective at the national level
in large part because FAA does not collect data on all overdue inspections or fully
utilize the data it already collects. In response to our 2008 recommendation, FAA
established a process to compile inspection data at the national level and distribute
quarterly reports to alert regional managers to overdue inspections. However, FAA’s
data tracking efforts still lack accountability in two key areas.

First, FAA does not monitor completion of a key group of inspections—those
identified as scheduled, but not yet assigned. 6 From June 2008 through June 2009,
237 scheduled inspections were left unassigned 7 and uncompleted—and none were
being tracked by FAA to completion. While local oversight offices rescheduled some
of the inspections, they were not projected for completion for as much as 4 years
beyond the original inspection date. Unless FAA holds regional managers
accountable for ensuring that local inspection offices complete these inspections, they
will continue to lapse beyond the minimum inspection intervals established by FAA.
Inspecting air carrier programs at required time intervals is critical to validate the
levels of risk that might exist in air carrier programs.
2
    14 CFR § 121, Operating Requirements: Domestic, Flag, and Supplemental Operations.
3
    OIG Report Number AV-2002-088, “Air Transportation Oversight System,” April 8, 2002. OIG reports are available on
    our website: www.oig.dot.gov.
4
    OIG Report Number AV-2005-062, “Safety Oversight of an Air Carrier Industry in Transition,” June 3, 2005.
5
    OIG Report Number AV-2008-057, “Review of FAA’s Oversight of Airlines and Use of Regulatory Partnership
    Programs,” June 30, 2008.
6
    Assigned inspections are scheduled in the ATOS automated system, and managers commit inspector resources to
    complete them. Assigned inspections must be completed on time; otherwise, a reason must be documented and the
    inspections must be manually rescheduled in ATOS.
7
    Unassigned inspections are scheduled in the ATOS automated system, but managers have not committed inspector
    resources to complete them.


CC-2009-070
                                                                                    3


Second, FAA’s quarterly inspection status reports do not include any trend analyses
or cumulative data roll-up from the rest of the year that could help identify offices
where inspections are habitually late. Moreover, regional managers stated that they
did not find the Headquarters reports useful and, in many cases, were already tracking
the progress of their local oversight offices in completing assigned inspections using
locally developed systems. Yet, those systems were not monitoring the 237 overdue
inspections identified during our review to completion.

Background: The Air Transportation Oversight System
ATOS is FAA’s approach to air carrier safety oversight. FAA inspectors assigned to
local oversight offices use ATOS to conduct surveillance of air carrier operations and
maintenance programs at more than 100 Part 121 air carriers in the United States.
ATOS is designed to allow FAA inspectors to use data to focus their inspections on
areas posing the greatest safety risks and adapt their inspection plans in response to
changing conditions within air carriers’ operations. ATOS helps inspectors assess air
carriers across three primary areas:

 • System Design: Inspectors evaluate air carriers’ policies and procedures to
   determine if their operating systems comply with safety regulations and standards.
   System design evaluations are required every 5 years.

 • Performance: Inspectors determine whether an air carrier is following its
   FAA-approved procedures and that those procedures and operating systems are
   working as intended. Performance evaluations are conducted at prescribed
   intervals depending on the likelihood of failure in air carrier programs.

 • Risk Management: Inspectors examine air carrier processes dealing with hazards
   and associated risks that are subject to regulatory control (e.g., enforcement
   actions and rulemaking). FAA uses these analyses as a basis to target resources
   towards the most at-risk programs.

The frequency of performance evaluations is based on the significance of the program
to an air carrier’s operations. Inspections of high-criticality maintenance programs,
such as Airworthiness Directive Management, are performed every 6 months; lower-
criticality programs, such as Carry-On Baggage or Service Difficulty Reports, are
inspected every 12 or 36 months, respectively.

Since ATOS is an automated oversight system, results of inspections and decisions
made by managers to mitigate risk levels are collected and organized in a centrally
located repository within ATOS. This allows Headquarters and regional officials to
monitor the current status of all ATOS inspections.




CC-2009-070
                                                                                                                      4


FAA Headquarters Does Not Use Inspection Status Data To Hold Local
Oversight Offices Accountable for Completing ATOS Inspections
Inspections are automatically scheduled in ATOS based on intervals established
within the system, and it is the responsibility of local oversight office managers to
assign inspectors to complete these inspections. However, our review of inspection
data indicates that not all scheduled inspections are being assigned, including those
with increased levels of risk. For example, four local oversight offices that
transitioned to ATOS since 2006 have yet to complete any scheduled system design
or performance inspections for 10 air carrier operations programs. At the time of our
review, these inspections were unassigned.

In our June 2008 report, we recommended that FAA implement a process to monitor
field office inspections and alert local, regional, and Headquarters management to
overdue inspections. In response, FAA developed a process to track the status of
ATOS inspections. In July 2008, the FAA Headquarters ATOS Division Manager
began sending quarterly inspection status reports—commonly referred to as the
Quarterly ADI 8 Completion Report—to regional managers. However, our analysis of
FAA’s quarterly inspection status reports shows that Headquarters only tracks the
status of assigned inspections for timely completion. Unassigned inspections pose a
greater problem for FAA because managers have not committed inspector resources
to complete these inspections. Once these inspections become past due, there is no
sense of urgency to complete them.

FAA Headquarters officials also use the quarterly reports during FAA’s “Dashboard”
meetings 9 to monitor the current status of ATOS inspection progress. However,
scheduling and completing unassigned inspections are not addressed during these
meetings; therefore, Headquarters does not know whether they will ever be
completed. The fact that FAA does not know the status of all inspections counters its
statement that it is monitoring ATOS inspections from a national perspective. Our
analysis shows that without FAA’s knowledge of unassigned inspections, they could
remain uncompleted for months or even years, and any associated risks within air
carrier programs would remain unknown.

We found 237 instances where ATOS inspections were unassigned and not completed
at the required interval. For example, our review of ATOS data disclosed
11 inspections that were at least 90 days past due but not yet rescheduled. In other
instances, FAA did reschedule unassigned inspections. However, as illustrated in the
table on the next page, FAA’s projected completion dates for these inspections will be
up to 4 years past the original due date. Past FAA inspection records have shown that

8
    ADI: Action, Determination, and Implementation is a process in ATOS designed to permit a principal inspector or
    management official to collect and analyze inspection data in order to make decisions to mitigate risks found during
    inspections of air carriers’ operating programs.
9
    These meetings are held every 2 weeks to discuss potential solutions to national aviation issues, including ATOS.


CC-2009-070
                                                                                        5


four of these six programs were identified as having increased levels of risk, meaning
inspectors identified vulnerabilities in the programs that could negatively impact
safety.

                  Table. Unassigned and Overdue Inspection Programs

          Inspection Program         Original Due         Revised Due      Time Past
                                          Date                Date           Due
        Engineering/Major            Dec. 31, 2008        Dec. 31, 2012     4 years
        Repairs and Alterations*
        Line Stations                Sept. 30, 2008       Sept. 30, 2012     4 years
        Other Personnel with         Sept. 30, 2008       Dec. 31, 2011      3 years,
        Operational Control*                                                3 months
        Training of Flight           Dec. 31, 2008        June 30, 2010    18 months
        Attendants*
        Major Repairs and            Sept. 30, 2008       Mar. 31, 2010    18 months
        Alterations Records*
        Deicing Program              Dec. 31, 2008        Mar. 31, 2010    15 months
        Source: FAA ATOS repository (June 30, 2008 – June 30, 2009)
        *Inspection programs identified with increased risk

FAA officials acknowledged that not all scheduled ATOS inspections will be
completed at the required interval. They informed us that in a risk-based oversight
system such as ATOS, it is not practical or desirable to complete all inspections just
for the sake of completing inspections. Therefore, Headquarters officials do not hold
local oversight offices accountable for completing unassigned inspections because
doing so would impede the time inspectors need to perform quality inspections for
those areas that pose greater risk. While we agree that higher-risk air carrier
programs warrant being inspected ahead of lower-risk programs, some of the
unassigned inspections were identified by inspectors as “high risk” programs but not
inspected. Additionally, ensuring that all areas, regardless of risk, are inspected is a
critical step toward identifying and monitoring risk levels before system failure
occurs.

Quarterly inspection status reports consistently pointed to a lack of inspector
resources as the main reason scheduled inspections have gone unassigned and
uncompleted. Headquarters officials acknowledged that they are aware of the
resource issues cited by the regions, but they have not addressed this problem. Our
analysis showed that a lack of inspector staffing was cited in 70 percent of the 237
unassigned inspections over a 1-year period.

FAA’s efforts to effectively oversee all inspections at a national level will require a
process that tracks unassigned inspections to ensure that they are rescheduled and
completed in a timely manner. FAA could maximize the results of this process by
monitoring reasons cited by local oversight offices for failing to assign inspections.


CC-2009-070
                                                                                                                       6


This would allow FAA to better ensure repetitive resource issues are resolved that
may be impeding timely completion of ATOS inspections.

FAA’s Inspection Status Reports Are Not Useful as an Analytical Tool
FAA’s Quarterly ADI Completion Report implemented in 2008 shows the current
status of ATOS system design and performance evaluations and is sent to the regions
during the first month after the quarter in which inspections were performed. The
ATOS Division Manager sends follow-up status reports to regional offices to remind
them to enter inspection data in ATOS before the end of the 30-day “grace period.” 10

Our analysis shows, however, that FAA’s quarterly report is not an effective
analytical tool because it only reflects inspection completion data for the past calendar
quarter and does not include any trend analyses or cumulative data roll-up that could
be useful in identifying problem offices where inspections are habitually late. As a
result, Headquarters does not readily know if uncompleted inspections—whether
assigned or unassigned—in that quarter would be scheduled and completed in the
following quarters.

We spoke with Headquarters officials and determined that the structure and design of
the Quarterly ADI Completion Report is left to the discretion of the ATOS Division
Manager as there is no documented process for preparing or disseminating the report.
We also contacted Flight Standards Division Managers at each of FAA’s eight regions
to determine if they found these reports, in their current format, to be useful in
tracking ATOS inspection results. In all instances, regional managers told us that
they were already tracking ATOS inspections and were fully engaged with their local
oversight offices in ensuring that ATOS inspections were completed on time;
therefore, they did not have much use for the Quarterly ADI Completion Reports.
However, inspections continue to be late, and our analysis showed that, like
Headquarters, regional managers are also not tracking unassigned inspections to
ensure that they will be rescheduled and completed.

Inspection tracking processes at regional offices were, however, more comprehensive
than the Quarterly ADI Completion Report prepared by Headquarters personnel. For
example, one region also provided analyses of training, budget, and enforcement
activities in its report. Another region tracks inspection completion status mid-way
through the current quarter to alert regional management that local oversight offices
may be falling behind. Even with this extra layer of oversight, neither regional nor
local oversight offices are required to report to Headquarters actions taken to
complete overdue inspections—unless they ask for them—which regional officials
said is unlikely.

10
     ATOS inspections must be completed in the quarter in which they were assigned to inspectors. Principal inspectors or
     management officials have until the end of the subsequent month to ensure that the decisions they make to mitigate
     identified risks in air carrier programs are entered into ATOS. Otherwise, they are considered overdue.


CC-2009-070
                                                                                     7


When we informed Headquarters officials that regional managers did not find the
reports useful, they disagreed. The Headquarters officials asserted that the reports
were effective in alerting regional managers to potentially overdue inspections and
that tracking inspections at the regional level should be more comprehensive to ensure
that ATOS inspections will be completed on time. Although it appears that FAA
Headquarters met the basic intent of our 2008 recommendation to monitor inspection
status and alert other levels of management to overdue inspections, FAA’s process is
not effective.

FAA could significantly enhance its inspection monitoring capability if it developed a
standardized reporting process based on the more comprehensive regional report
formats that tracks unassigned as well as assigned inspections until completion. This
process would also provide FAA with more comprehensive analyses and trending
reports that it could use to hold local oversight offices accountable for completing
timely inspections.

Conclusion
FAA has been refining and enhancing ATOS since its 1998 inception. A strong air
carrier oversight system is critical for FAA as it will never have enough inspectors to
oversee every aspect of air carrier safety. Yet, ATOS is still lacking a key
component—comprehensive national oversight. Until FAA fully addresses this issue,
oversight lapses will continue to occur. We plan to issue a report to FAA later this
year with our formal findings and recommendations. We will monitor FAA’s
progress and keep you and your staffs apprised of developments.

If you have any questions concerning this letter, please contact me at (202) 366-1959
or Lou Dixon, Assistant Inspector General for Aviation and Special Program Audits,
at (202) 366-0500.

Sincerely,


Calvin L. Scovel III
Inspector General


cc: Secretary of Transportation
    Federal Aviation Administrator




CC-2009-070
